NO. 20-

IN THE

SUPREME COURT
OF THE UNITED STATES
GREGORY ROBERSON,
CHARLES MATTHEWS,
DOROTHY ROBINSON,
v.

Petitioners,

UNITED STATES OF AMERICA,
Respondents

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
HEIDI R. FREESE, ESQ.
Federal Public Defender
Middle District of Pennsylvania

FREDERICK W. ULRICH, ESQ.
Assistant Federal Public defender
Tammy L. Taylor, Esq.
Staff Attorney

Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
fritz_ulrich@fd.org
Counsel for Petitioners
May 4, 2021

In accordance with Rule 39 of the Rules of the Supreme Court of the United
States, Petitioners, Gregory Roberson, Charles Matthews, and Dorothy Robinson,
request leave to file the enclosed Petition for Writ of Certiorari to the United States
Court of Appeals for the Third Circuit without prepayment of costs and to proceed
in forma pauperis based upon an appointment under the Criminal Justice Act, 18
U.S.C. § 3006A(d)(6). Pursuant to the Criminal Justice Act, the Federal Public
Defender’s Office was appointed to represent the Petitioner in the United States
District Court for the Middle District of Pennsylvania and in the United States
Court of Appeals for the Third Circuit.
Respectfully submitted,
HEIDI R. FREESE
Federal Public Defender
/s/ Frederick W. Ulrich
FREDERICK W. ULRICH
Asst. Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
(717) 782-2237
Attorney ID# PA44855
Counsel for Petitioners
Date: May 4, 2021

